IN THE SUPREME COURT OF THE UNITED STATES
Derrick Williams,
Petitioner,
v.
United States of America,
Respondent.

)
)
)
)
)
)
)

Supreme Court Case No. _________
Tenth Circuit Case No. 18-1299

APPLICATION FOR EXTENSION OF TIME TO FILE
PETITION FOR WRIT OF CERTIORARI TO THE UNITED
STATES COURT OF APPEALS FOR THE TENTH CIRCUIT
To the Honorable Sonya Sotomayor, Associate Justice of the Supreme Court
of the United States and Circuit Justice for the Tenth Circuit:
Pursuant to 28 U.S.C. § 2101(c) and Rules 13.5 and 30.1 of the Rules of this
Court, Petitioner Derrick Williams respectfully requests a 60-day extension of the
deadline, or until April 13, 2020, to file his petition for certiorari in this Court. The
deadline for Mr. Williams’s petition for certiorari began to run on November 14,
2019, when the Tenth Circuit issued its opinion affirming the district court, and Mr.
Williams’s petition for certiorari is presently due on February 12, 2019. This
application is being filed more than 10 days before that date.
A copy of the Tenth Circuit’s decision is attached hereto. The jurisdiction of
this Court is invoked under 28 U.S.C. § 1254(1).
As shown by the opinion below, this case presents the question of whether
border agents had a sufficient predicate to search Mr. Williams’s electronic device
as he was entering the country. What sort of predicate border agents must have for
such a search is the subject of a circuit split. The decision below holds that

electronic device searches at the border require at most reasonable suspicion of
“criminal activity,” and it rejects the notion that the reasonable suspicion must be
tethered to the Government’s particular interests at the border. United States v.

Williams, 942 F.3d 1187, 1190–91 (10th Cir. 2019). The Fourth and Ninth Circuits,
by contrast, hold that reasonable suspicion of ordinary criminal activity is not
enough and that the predicate for an electronic device search at the border must be
tethered to the Government’s particular interests at the border. See United States

v. Aigbekaen, 943 F.3d 713, 720–21 (4th Cir. 2019); United States v. Cano, 934 F.3d
1002, 1016–18 (9th Cir. 2019). Mr. Williams’s case is a serious candidate for a grant
of certiorari and deserves a substantial investment of counsel’s time.
Due to other pressing professional and personal responsibilities, however,
counsel for Mr. Williams cannot complete an adequate petition for certiorari by the
present due date.
Since the Tenth Circuit issued its decision in Mr. Williams’s case, counsel’s
time has been largely consumed by completing the following, which had deadlines
that could not be extended (or could not be further extended):
•

Oral Argument, United States v. Tony, No. 18-2182 (10th Cir. Nov. 21, 2019);

•

Supplemental Brief, United States v. Lawless, No. 17-1148 (10th Cir. Dec. 2,
2019);

•

Appellant’s Brief, United States v. Wieck, No. 19-6075 (10th Cir. Dec. 16,
2019);

•

Oral Argument, United States v. Moore, No. 17-1224 (10th Cir. Jan. 21,
2020); and

2

•

Petition for a Writ of Certiorari, Bush v. Sharp, No. 19-7455 (U.S. Jan. 24,
2020).
In addition, counsel has invested (and will be required to continue to invest

going forward) a significant amount of time in preparing for resentencing
proceedings in United States v. Brewington, No. 1:15-CR-00073-PAB-1 (D. Colo.),
and United States v. Lawless, 1:11-CR-00278-WYD-1 (D. Colo.), which are on
remand from appeals in which the undersigned was counsel for the appellants.
Further, undersigned counsel has two small children who have both gotten
the flu. The necessity of caring for them has required counsel to be away from the
office for substantial periods.
Going forward, counsel must finish drafting and file a reply brief in United

States v. Moses, No. 19-6036 (10th Cir.), which is due on a final deadline of
February 4, 2020, before turning in earnest to Mr. Williams’s certiorari petition.
For these reasons, counsel for Mr. Williams respectfully requests a 60-day
extension of time, or until April 13, 2020, to file his petition for certiorari in this
Court.
Respectfully submitted,
VIRGINIA L. GRADY
Federal Public Defender
/s/ Josh Lee
Josh Lee
Assistant Federal Public Defender
josh.lee@fd.org

Counsel of Record for Petitioner

633 17th Street, Suite 1000
Denver, Colorado 80202
Tel: (303) 294-7002
Fax: (303) 294-1192
3

